<html>
<title> - STRENGHTENING AMERICA'S HIGHER EDUCATION SYSTEM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     STRENGTHENING AMERICA'S HIGHER
                            EDUCATION SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 17, 2015

                               __________

                            Serial No. 114-5

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                              ____________
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
93-703 PDF                    WASHINGTON : 2016                      
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  
               
                
                
                
                OMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

PJoe Wilson, South Carolina          Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                
                                
                                ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

David P. Roe, Tennessee              Ruben Hinojosa, Texas
Matt Salmon, Arizona                   Ranking Minority Member
Brett Guthrie, Kentucky              Hakeem S. Jeffries, New York
Lou Barletta, Pennsylvania           Alma S. Adams, North Carolina
Joseph J. Heck, Nevada               Mark DeSaulnier, California
Luke Messer, Indiana                 Susan A. Davis, California
Bradley Byrne, Alabama               Raul M. Grijalva, Arizona
Carlos Curbelo, Florida              Joe Courtney, Connecticut
Elise Stefanik, New York             Jared Polis, Colorado
Rick Allen, Georgia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 17, 2015...................................     1

Statement of Members:
    Adams, Hon. Alma S., a Representative in Congress from the 
      State of North Carolina....................................     3
        Prepared statement of....................................     5
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bennett, Mr. Michael J., Associate Vice President, Financial 
      Aid Services, St. Petersburg College, St. Petersburg, 
      Florida....................................................    40
        Prepared statement of....................................    42
    Bergeron, Mr. David A., Vice President, Postsecondary 
      Education, Center for American Progress, Washington, DC....    26
        Prepared statement of....................................    28
    Daniels Jr., Mr. Mitchell E., President, Purdue University, 
      West Lafayette, IN.........................................     9
        Prepared statement of....................................    11
    Keller, Dr. Christine M., Vice President, Research and Policy 
      Analysis, Executive Director, Voluntary System of 
      Accountability and Student Achievement Measure, Association 
      of Public and Land-Grant Universities, Washington, DC......    17
        Prepared statement of....................................    19

Additional Submissions:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce:
        Prepared statement of Warren, Mr. David L., President, 
          National Association of Independent Colleges and 
          Universities...........................................    78
    Mr. Daniels:
        Purdue Moves.............................................    73
        Purdue Impacts...........................................    75
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado:
        Prepared statement of The United Steel, Paper and 
          Forestry, Rubber Manufacturing, Energy, Allied 
          Industrial and Service Workers International Union 
          (USW)..................................................    83
        Statement of Administration Policy.......................    85

 
            STRENGHTENING AMERICA'S HIGHER EDUCATION SYSTEM

                              ----------                              


                        Tuesday, March 17, 2015

                       House of Representatives,

             Subcommittee on Higher Education and Workforce

                               Training,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Roe, Guthrie, Messer, 
Curbelo, Stefanik, Allen, Adams, DeSaulnier, Davis, Courtney, 
and Polis.
    Also present: Representatives Kline, Rokita, and Scott.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Amy Raaf 
Jones, Director of Education and Human Resources Policy; Nancy 
Locke, Chief Clerk; Brian Melnyk, Professional Staff Member; 
Daniel Murner, Deputy Press Secretary; Krisann Pearce, General 
Counsel; Jenny Prescott, Legislative Assistant; Mandy 
Schaumburg, Education Deputy Director and Senior Counsel; Emily 
Slack, Professional Staff Member; Alissa Strawcutter, Deputy 
Clerk; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Staff Assistant; Eamonn 
Collins, Minority Education Policy Advisor; Denise Forte, 
Minority Staff Director; Rosa Garcia, Minority Senior Education 
Policy Advisor; Scott Groginsky, Minority Senior Education 
Policy Advisor; Christian Haines, Minority Education Policy 
Counsel; and Tina Hone, Minority Education Policy Director and 
Associate General Counsel.
    Chairwoman Foxx. Good morning. A quorum being present, the 
Subcommittee on Higher Education and Workforce Training will 
come to order.
    Welcome to the first hearing of the Subcommittee on Higher 
Education and Workforce Training in the 114th Congress.
    I would like to thank our witnesses for joining us today. 
We appreciate the opportunity to learn from you about how to 
strengthen America's postsecondary system as Congress works to 
reauthorize the Higher Education Act.
    Today, too many Americans struggle to realize the dream of 
higher education. Our current system is unaffordable, 
inflexible, and outdated, and has resulted in too many students 
unable to complete college, saddled with loan debt, and ill-
equipped to compete in our modern economy. In recent years, 
more federal regulations, a lack of transparency, and a 
dizzying maze of student aid programs have only contributed to 
the problem.
    Students and families deserve better. The upcoming 
reauthorization of the Higher Education Act provides Congress 
an opportunity to help every individual, regardless of age, 
location, or background, access and complete higher education 
if they choose.
    To inform the reauthorization process, the Education and 
the Workforce Committee have held more than a dozen hearings. 
After receiving feedback from students, institutions, 
innovators, administrators, and researchers, the committee 
established a set of key principles that will guide our reform 
of the postsecondary education law.
    First, we must empower students and families to make 
informed decisions when it comes to selecting the institution 
that meets their unique needs. Today's higher education 
resources are incomplete, inaccurate, and often complicate the 
financial aid process, misguiding students about their academic 
and financial options. Developing a more streamlined and 
transparent system, as well as enhancing financial literacy 
services, will help students better understand the higher 
education landscape and make choices based on easy-to-
understand, relevant information.
    Second, we must simplify and improve student aid. 
Currently, the federal government operates more than 10 aid 
programs, each with its own set of rules and requirements.
    Many students, particularly first-generation and low-income 
students, are overwhelmed by the complexity of the current 
system, which can ultimately deter them from accessing the aid 
that will help make college a reality. Consolidating this 
patchwork of aid programs will simplify the application and 
eligibility process and help more students understand, manage, 
and repay their debt.
    Third, we must promote innovation, access, and completion. 
In recent years, as the postsecondary student population has 
changed, many institutions have developed new approaches to 
delivering higher education, including competency-based 
curriculums and online classes. The federal government should 
make every effort to support these innovations, as they have 
enabled more Americans to earn a degree or certificate faster, 
with less cost, and without additional disruption to their 
daily lives.
    Finally, we must ensure strong accountability while 
limiting the federal role. The current administration has 
subjected institutions to onerous requirements and regulations, 
which have created a costly and time-consuming process, 
hampered innovation, and jeopardized academic freedom. 
Eliminating ineffective federal burdens will provide states and 
institutions the flexibility they need to deliver effectively a 
high-quality education to their students.
    We are confident, with guidance from higher education 
leaders such as you, these pillars will translate into 
meaningful federal reforms that reflect the evolving needs of 
students and the workforce. We welcome your policy 
recommendations on how we can strengthen America's higher 
education system to serve students, families, workers, and 
taxpayers better.
    I look forward to hearing from you and from my colleagues 
on this important issue.
    With that, I now recognize my North Carolina colleague, and 
Democrat colleague, the ranking member of the subcommittee 
today, Congresswoman Alma Adams, for her opening remarks.

 Prepared Statement of Hon. Virginia Foxx, Chairwoman, Subcommittee on 
                Higher Education and Workforce Training

    Today, too many Americans struggle to realize the dream of higher 
education. Our current system is unaffordable, inflexible, and 
outdated, and has resulted in too many students unable to complete 
college, saddled with loan debt, and ill-equipped to compete in our 
modern economy.
    In recent years, more federal regulations, a lack of transparency, 
and a dizzying maze of student aid programs have only contributed to 
the problem. Students and families deserve better.
    The upcoming reauthorization of the Higher Education Act provides 
Congress an opportunity to help every individual - regardless of age, 
location, or background - access and complete higher education, if they 
choose.
    To inform the reauthorization process, the Education and the 
Workforce Committee has held more than a dozen hearings. After 
receiving feedback from students, institutions, innovators, 
administrators, and researchers, the committee established a set of key 
principles that will guide our reform of the postsecondary education 
law.
    First, we must empower students and families to make informed 
decisions when it comes to selecting the institution that meets their 
unique needs. Today's higher education resources are incomplete, 
inaccurate, and often complicate the financial aid process, misguiding 
students about their academic and financial options. Developing a more 
streamlined and transparent system, as well as enhancing financial 
literacy services, will help students better understand the higher 
education landscape and make choices based on easy-to-understand, 
relevant information.
    Second, we must simplify and improve student aid. Currently, the 
federal government operates more than 10 aid programs, each with its 
own set of rules and requirements. Many students, particularly first-
generation and low-income students, are overwhelmed by the complexity 
of the current system, which can ultimately deter them from accessing 
the aid that will help make college a reality. Consolidating this 
patchwork of aid programs will simplify the application and eligibility 
process and help more students understand, manage, and repay their 
debt.
    Third, we must promote innovation, access, and completion. In 
recent years, as the postsecondary student population has changed, many 
institutions have developed new approaches to delivering higher 
education, including competency-based curriculums and online classes. 
The federal government should make every effort to support these 
innovations, as they have enabled more Americans to earn a degree or 
certificate faster, with less cost, and without additional disruption 
to their daily lives.
    Finally, we must ensure strong accountability while limiting the 
federal role. The current administration has subjected institutions to 
onerous requirements and regulations, which have created a costly and 
time-consuming process, hampered innovation, and jeopardized academic 
freedom. Eliminating ineffective federal burdens will provide states 
and institutions the flexibility they need to effectively deliver a 
high quality education to their students.
    We are confident - with guidance from higher education leaders such 
as you - these pillars will translate into meaningful federal reforms 
that reflect the evolving needs of students and the workforce.
    We welcome your policy recommendations on how we can strengthen 
America's higher education system to serve students, families, workers, 
and taxpayers better. I look forward to hearing from you and from my 
colleagues on this important issue.
                                 ______
                                 
    Ms. Adams. Thank you, Chairwoman Foxx, for holding this 
hearing on the reauthorization of the Higher Education Act. In 
Ranking Member Ruben Hinojosa's absence, I will be serving as 
your Democratic co-chair of today's subcommittee hearing, and I 
am glad to do so.
    I wish to acknowledge the ranking member of our full 
committee, Congressman Bobby Scott, and thank him for being 
here for this important hearing, which marks the beginning of 
our efforts related to reauthorization of the Higher Education 
Act.
    To our distinguished panel of experts, welcome, and thank 
you for joining us this morning.
    Today's committee discussion will focus on ways Congress 
and the federal government can strengthen America's higher 
education system. For committee Democrats, increasing 
affordability, accessibility, and student success in higher 
education are key priorities for the reauthorization of the 
Higher Education Act this Congress.
    Attaining a college degree is more important than ever. 
According to a recent report of the Georgetown University 
Center on Education and the Workforce, by 2018, 65 percent of 
all jobs will require some form of postsecondary education.
    In light of this, I am deeply concerned that children 
living in poverty will be left behind without a college degree. 
As this committee considers the reauthorization of the Higher 
Education Act, we must ensure that all students, including low-
income students that are often students of color, have access 
to a high-quality postsecondary education and are equipped with 
the knowledge and 21st century skills that are needed to 
succeed.
    First, the reauthorization must address college 
affordability and strengthen federal student aid programs. In 
my view, increasing the purchasing power of the Pell Grant, 
restoring the year-round Pell Grant program, can make college 
more affordable for millions of students.
    Today, approximately 8.4 million students benefit from the 
nation's federal Pell Grant program. The maximum Pell Grant 
award of $5,700 in 2014, however, covers less than one-third of 
the cost of a public 4-year institution. A restoration of the 
year-round Pell Grant program could help to accelerate degree 
completion for Pell recipients and reduce college costs.
    So I am pleased that my colleagues on the other side of the 
aisle recognize the value of incentivizing flexibility, 
continuous enrollment, and college completion for Pell Grant 
recipients.
    And with regard to federal direct loans, it is vitally 
important that students and families maintain access to student 
loans with low interest rates and affordable repayment options. 
To reduce student loan defaults and protect student borrowers, 
we must do a better job of improving loan servicing and help 
struggling borrowers to rehabilitate their loans.
    We must also ensure that parents have access to Parent PLUS 
loans. As you are aware, the changes made to Parent PLUS loan 
programs in 2011 made it more difficult for nearly 28,000 HBCU 
students and their families to afford the cost of a college 
degree.
    And let's be clear, the federal government cannot do this 
alone. states and institutions must do their part to rein in 
college costs and make college more affordable.
    To be sure, the federal government can strengthen the 
federal-state partnership on higher education by incentivizing 
states to bolster state investments in higher education and 
state financial aid programs. This type of partnership could 
help make college more affordable and accessible for students.
    And while our nation has one of the most comprehensive and 
reputable higher education systems in the world, disparities 
among institutions persist. For example, HBCU's and minority-
serving institutions continue to be under-resourced. HBCUs 
represent 3 percent of the nation's institutions of higher 
learning but graduate nearly 20 percent of African Americans 
who earn undergraduate degrees.
    In addition, the institutions graduate more than 50 percent 
of African American professionals and public school teachers. 
Having earned an undergraduate and master's degree from an 
HBCU, as well as having taught at one for 40 years, I clearly 
understand the longstanding contributions that these 
institutions have made to higher education. And because of my 
experiences, I am especially pleased to co-chair the bipartisan 
congressional HBCU caucus, with my colleague, Bradley Byrne. 
Given their vital importance to underrepresented and low-income 
students, the federal government must continue to support and 
invest in these institutions.
    In particular, the reauthorization of Higher Education Act 
must ensure that HBCUs and minority-serving institutions have 
the capacity and the resources they need to thrive and provide 
students with access to a high-quality education.
    And finally, our nation's higher education system must 
improve completion rates for all students. We must move away 
from linear measurements of success that do not take into 
account the unique circumstances that face low-income students 
that are often students of color. Without a college degree, it 
becomes more difficult for students to access good jobs and 
careers and to improve their lives.
    So moving forward, I look forward to working with my 
colleagues on both sides of the aisle to reauthorize the Higher 
Education Act in this Congress.
    Chairman Foxx, with that, I yield back.

Prepared Statement of Hon. Alma S. Adams, a Representative in Congress 
                    from the State of North Carolina

    Thank you, Chairwoman Foxx, for holding this hearing on the 
reauthorization of the Higher Education Act (HEA). In Ranking Member 
Ruben Hinojosa's absence, I will be serving as your Democratic Co-Chair 
of today's subcommittee hearing.
    I wish to acknowledge the Ranking Member of our full committee, 
Congressman Bobby Scott, and thank him for being here for this 
important hearing, which marks the beginning of our efforts related to 
the reauthorization of Higher Education Act.
    To our distinguished panel of experts, welcome and thank you for 
joining us this morning.
    Today's committee discussion will focus on ways Congress and the 
federal government can strengthen America's higher education system. 
For committee Democrats, increasing affordability, accessibility and 
student success in higher education are key priorities for the 
reauthorization of the Higher Education Act this Congress.
    Attaining a college degree is more important than ever. According 
to a recent report by the Georgetown University Center on Education and 
the Workforce, by 2020, 65 percent of all jobs will require some form 
of postsecondary education.
    In light of this fact, I am deeply concerned that children living 
poverty will be left behind without a college degree. As this committee 
considers the reauthorization of the Higher Education Act, we must 
ensure that all students, including low-income students that are often 
students of color, have access to a high quality postsecondary 
education and are equipped with the knowledge and 21st century skills 
they need to succeed.
    First, the reauthorization must address college affordability and 
strengthen federal student aid programs. In my view, increasing the 
purchasing power of the Pell grant and restoring the year-round Pell 
program can make college more affordable for millions of students.
    Today, approximately 8.4 million students benefit from the nation's 
federal Pell grant program.
    The maximum Pell grant award of $5,730 in 2014, however, covers 
less than one third of the cost of a public four-year institution. A 
restoration of the year-round Pell grant program could help to 
accelerate degree completion for Pell recipients and reduce college 
costs. I am pleased that my colleagues on the other side of aisle 
recognize the value of incentivizing flexibility, continuous 
enrollment, and college completion for Pell grant recipients.
    With regard to Federal Direct Loans, it is vitally important that 
students and families maintain access to student loans with low-
interest rates and affordable repayment options. To reduce student loan 
defaults and protect student borrowers, we must do a better job of 
improving loan servicing and help struggling borrowers to rehabilitate 
their loans.
    We must also ensure that parents have access to Parent PLUS loans. 
As you are aware, changes made to Parent PLUS Loan Program in 2011 made 
it more difficult for nearly 28,000 HBCU students and their families to 
afford the cost of a college degree.
    But let's be clear, the federal government cannot do this alone.
    States and institutions must do their part to rein in college costs 
and make college more affordable. To be sure, the federal government 
can strengthen the federal-state partnership in higher education by 
incentivizing states to bolster state investments in higher education 
and state financial aid programs. This type of partnership could help 
to make college more affordable and accessible for students.
    While our nation has one of the most comprehensive and reputable 
higher education systems in the world, disparities among institutions 
persist. For instance, HBCUs and Minority Serving Intuitions continue 
to be under-resourced. HBCUs represent only three percent of the 
nation's institutions of higher learning, but graduate nearly 20 
percent of African Americans who earn undergraduate degrees. In 
addition, the institutions graduate more than 50 percent of African 
American professionals and public school teachers.
    Having earned both an undergraduate and master's degree from an 
HBCU, as well as having taught at one for 40 years, I clearly 
understand the long-standing contributions that these institutions have 
made to American higher education and to society.
    Because of my experiences, I am especially pleased to co-chair the 
bipartisan Congressional HBCU Caucus with my colleague Bradley Byrne. 
Given their vital importance to underrepresented and low-income 
students, the federal government must continue to support and invest in 
these institutions.
    In particular, the reauthorization of the Higher Education Act must 
ensure that HBCUs and Minority Serving institutions have the capacity 
and resources they need to thrive and provide students with access to a 
high quality education now and into the future.
    Finally, our nation`s higher education system must improve college 
completion rates for all students.
    We must move away from linear measurements of success that do not 
take into account the unique circumstances that face low-income 
students, that are often students of color.Without a college degree, it 
becomes more difficult for students to access good jobs and careers and 
improve their lives.
    Moving forward, I look forward to working with my colleagues on 
both sides of the aisle to reauthorize the Higher Education Act in this 
Congress.
    Chairman Foxx, with that, I yield back.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Congresswoman Adams.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record, and without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    It is now my pleasure to introduce our distinguished 
witnesses, and I recognize Mr. Rokita and Mr. Messer to 
introduce our first witness--or, Mr. Messer first?
    Mr. Messer. I will certainly follow the wishes of the 
chair. My apologies. I thought Mr. Rokita was going first, but 
I am glad to greet my good friend, Governor Daniels. And he is 
a close enough friend of mine that I know he is no fan of long 
introductions, so I will try to keep my comments brief.
    You know, of all the praise and accolades I could give our 
good governor, now the former governor, now the president of 
Purdue, I would just focus on one, and that is that Mitch 
Daniels gets things done, that everywhere he has been, from his 
distinguished business career at Eli Lilly to his time as 
governor of Indiana, where we balanced budgets, had record 
levels of investment in infrastructure, and reformed government 
so much so that the consumer experience at the Bureau of Motor 
Vehicles is actually liked by the residents of Indiana now, as 
you can get in and out in less than 10 minutes, to his time now 
at Purdue, where he has frozen tuition and received national 
accolades for that--freezing tuition at the 2012-2013 levels--
established innovative programs with Amazon that save students 
up to 30 percent on their textbooks, even creating a 
competency-based degree at Purdue Polytechnic--at the Purdue 
Polytechnic Institute.
    Mitch Daniels is somebody who, throughout his career, has 
demonstrated that he knows it is important what we say, but 
even more important what we do, and that at this time when many 
are cynical about public policy, the real anecdote to that 
cynicism is to deliver results. This is a man I know who 
delivers results.
    I am proud to call him my friend. I was proud to call him 
the governor of Indiana. And I am today very proud to call him 
the president of Purdue.
    Thank you for being here today.
    Mr. Rokita. Thank you, Chair.
    Let me add to that introduction simply by saying grateful 
for former Indiana governor and now president of Purdue 
University, Mitch Daniels, for being here. We served together, 
he as governor and myself as secretary of state, for a good 
number of years, and together we supported each other's work, 
and I am very proud to be a part of the largest transportation 
infrastructure investment program in Indiana's history, 
economic development issues, as Representative Messer 
mentioned, but also thorny political issues, like reforming 
Indiana's congressional districts and even a photo ID that 
makes sure every vote--at the polls that makes sure every vote 
counts equally.
    They are all examples, as Congressman Messer pointed out, 
of a simple motto that says, ``Leaders lead.'' And that 
certainly was Governor Daniels, and now I--we continue to 
support former Governor Daniels as President Daniels, as he 
leads Purdue University in the heart of Indiana's 4th District.
    Under President Daniels' leadership, it is important to 
note that tuition at Purdue University has been frozen, and 
until Mitch did that I don't know of any other university that 
even attempted it. And now dominoes are falling and other 
universities are replicating it. I am sure we will hear from 
the other witnesses today about that.
    And I hope that other university leaders have the courage 
to not only emulate some of the ideas occurring at Purdue 
University, but to even improve upon them. And I am sure we 
will hear more examples and ideas from President Daniels 
directly, so I invite committee members to welcome a great 
Hoosier and American, Purdue University president and former 
Indiana governor, Mitch Daniels.
    And I yield back.
    Chairwoman Foxx. You may want to take them on the road with 
you.
    Mr. Daniels. I am the one who is grateful. Grateful to 
the--
    Chairwoman Foxx. I am pleased to introduce our remaining 
witnesses.
    Dr. Christine Keller is the vice president of research and 
policy analysis at the Association of Public and Land-Grant 
Universities, APLU, here in Washington, D.C. She also directs 
the Voluntary System of Accountability on behalf of APLU and 
the American Association of State Colleges and Universities, 
and oversees the cross-sector Student Achievement Measure 
project on behalf of multiple higher education associations.
    Before joining APLU, she was the assistant director of 
institutional research and planning at the University of Kansas 
and the associate dean of continuing education at Sterling 
College in Sterling, Kansas.
    Dr. David A. Bergeron is the vice president for 
postsecondary education at the Center for American Progress 
here in Washington, D.C. Previously, Mr. Bergeron served more 
than 30 years at the U.S. Department of Education. During his 
years with the department, Mr. Bergeron acted as the secretary 
of education's chief advisor on higher education issues, 
administered more than 60 grant and loan programs annually, and 
was responsible for the federal postsecondary education program 
budget and the legislation, regulations, and other policies 
affecting the department's postsecondary education programs.
    Mr. Michael J. Bennett is the associate vice president of 
financial assistance services at St. Petersburg College in St. 
Petersburg, Florida. Mr. Bennett has worked as a financial aid 
administrator for the past 34 years. He is a former chair of 
the National Association of Student Financial Aid 
Administrators and the former president of the Eastern 
Association of Student Financial Aid Administrators and the New 
Jersey Association of Financial Aid Administrators.
    I now ask our witnesses to stand and raise your right hand.
    [Witnesses sworn.]
    Let the record reflect the witnesses answered in the 
affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You have 5 minutes to 
present your testimony.
    When you begin, the light in front of you will turn green. 
When 1 minute is left, the light will turn yellow. When your 
time is expired, the light will turn red.
    At that point I will ask that you wrap up your remarks as 
best you are able. Members will each have 5 minutes to ask 
questions.
    I would like now to recognize the Honorable Mitch Daniels 
for his comments.

 TESTIMONY OF HON. MITCHELL E. DANIELS, JR., PRESIDENT, PURDUE 
              UNIVERSITY, WEST LAFAYETTE, INDIANA

    Mr. Daniels. Grateful to the chair, to Congresswoman Adams, 
and to the committee for this chance to be here today.
    Thanks, of course, to my good friends, and our congressmen 
at Purdue, Todd Rokita and Luke Messer.
    Thank you very much for the chance to come say, first of 
all, on behalf of the American higher education system, that at 
a time in which our national leadership is under challenge in 
various dimensions, one area in which we are unquestionably the 
leader of the world is in the quality of our higher ed system. 
And yet, questions are being asked about that system we have 
not heard before. They are legitimate, and the system calls out 
for modernization and change.
    And the timing of this hearing, the timing of the renewal 
of the act under consideration here could hardly be better. The 
United States government can help in many ways with the 
concerns of cost and accommodating new modes of learning better 
suited to today's young people, better suited to the national 
economy.
    The two areas--and I was so grateful to hear both of our--
the leaders of the committee speak to these--two areas I would 
single out, among others, in which the Congress can be of great 
help.
    First of all, in lowering the barriers to innovation. Comes 
slowly enough in higher ed, but many, many universities--and I 
believe ours is one--are eager to adapt and to new 
technologies, to new needs in the marketplace.
    Many of the rules in place, many of the aspects of the 
current law get in the way; for instance, at Purdue we are very 
eager to begin using summer or making it possible for our 
students to use their summers more extensively than they have 
historically to proceed to degrees in fewer than 4 years, and 
here--Congresswoman Adams mentioned certainly one way in which 
the Congress could help, by liberalizing the grant programs 
that we have. The same applies to competency-based education, 
allowing students and helping students to move forward at their 
own rate and not on the arbitrary agrarian calendar we 
inherited.
    There are a host of regulations which have grown up over 
the years. All, I am sure, are well intentioned. I recommend to 
the committee's attention the tremendous report by the American 
Council on Education, which details the difficulties that these 
regulations now cause and has a host of specific requests for 
greater flexibility.
    They impose enormous cost on the system. At our university, 
based on the work done at Vanderbilt and elsewhere, it is 
entirely credible to assert that as much as $200 million is 
consumed in complying with the entire complex of regulations. 
We could send 20,000 Hoosier students to school for free with 
that amount of money.
    So this is a--really a marvelous opportunity that is in 
front of the nation, and I would like to say that at our 
university we accept the assignment to play our part. We have 
worked to make the school more accessible and affordable.
    We have frozen tuition, and we are in the second year of at 
least a 3-year hold. Those students who arrived at Purdue when 
I did will--those who graduate in 4 years will never see a 
tuition increase, and that is a first for us in a long, long 
time.
    We have reduced the cost of room and board 10 percent. We 
have acted more recently to reduce the cost of the third most 
expensive item, which is textbooks. Meanwhile, we are making 
very substantial investments in new modes of teaching, some of 
which I have mentioned here.
    So we thank very much this committee and those other 
members of Congress who will work with you. We do have the 
finest system anywhere.
    It is absolutely imperative to our national success that we 
make it more accessible, more affordable, and more accountable 
than it has been. This is a marvelous opportunity not to be 
missed.
    [The testimony of Mr. Daniels follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Foxx. Dr. Keller?

TESTIMONY OF DR. CHRISTINE M. KELLER, VICE PRESIDENT, RESEARCH 
 AND POLICY ANALYSIS, EXECUTIVE DIRECTOR, VOLUNTARY SYSTEM OF 
ACCOUNTABILITY AND STUDENT ACHIEVEMENT MEASURE, ASSOCIATION OF 
      PUBLIC AND LAND-GRANT UNIVERSITIES, WASHINGTON, D.C.

    Ms. Keller. Good morning. Chairwoman Foxx, Ranking Member 
Adams, and members of the subcommittee, thank you for inviting 
me to speak this morning.
    Access to meaningful postsecondary data for decision-making 
has become increasingly important for consumers, policymakers, 
and institutions. I am pleased to share with you this morning 
lessons we have learned through our experiences with the 
Voluntary System of Accountability and the Student Achievement 
Measure.
    The VSA is an initiative by public 4-year universities to 
supply basic data on the undergraduate student experience 
through a common Web report, the ``College Portrait.'' 
Developed in 2007, the VSA is jointly sponsored by APLU and the 
Association of State Colleges and Universities. We currently 
have 270 participating institutions.
    The VSA champions the importance of providing information 
in a comparable and understandable way to students, families, 
and policymakers. Each institution's college portrait includes 
data in areas such as college cost, financial aid, degree 
programs offered, and educational opportunities such as 
undergraduate research or study abroad.
    The VSA remains the only national initiative that publicly 
reports direct evidence of student learning.
    The Student Achievement Measure, or SAM, was created with 
one goal in mind: to provide a more complete national picture 
of student progress and outcomes than the current federal 
graduation rate. By tracking only outcomes for full-time 
students who graduate from their first institution, the federal 
graduation rate is increasingly outdated for today's mobile and 
diverse students. Using SAM, institutions can track the 
graduation of full-time, part-time, and transfer students, as 
well as students still enrolled and working toward a degree or 
certificate.
    Currently, SAM has 559 participating institutions and shows 
the outcomes of the half million more students than the federal 
graduation rate. SAM is sponsored by all six of the 
presidential higher education associations and represents 
public, private, 2-year, and 4-year institutions.
    Overall, our experience with the VSA and SAM provide three 
lessons that are particularly relevant for HEA reauthorization.
    One: Build a foundation of trustworthy data. Reliable 
information is the foundation for any reporting system.
    It is true that the perfect metric or data source rarely, 
if ever, exists. However, it is equally true that the data 
needs to be reliable enough to represent a realistic set of 
outcomes. When a data source or metric no longer meets that 
standard, it should be replaced--for example, the federal 
graduation rate.
    Lesson two: Leverage the data already collected and 
reported. Too much data can be overwhelming to external 
audiences and a burden for institutions.
    It is important for those of us who collect and disseminate 
data to work together to better align definitions, enhance 
comparability, and minimize reporting burdens. Before adding 
other data elements at the federal level, for example, we 
should question what data elements to remove as well as what 
information is already reported at the state level or through 
national systems.
    Lesson three: Report key limited information at the federal 
level. APLU recommends minimizing the federal data collected to 
focus on a few key elements related to access, affordability, 
progress and completion, and post-collegiate outcomes, ensuring 
that the most relevant information is readily available to all 
students. Additional contextual information could be made 
available through institutions' Web sites, links to state 
dashboards, or national data initiatives such as the VSA.
    In closing, thank you for the opportunity to offer some of 
the lessons we have learned. I look forward to your questions.
    [The testimony of Dr. Keller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Foxx. Thank you very much.
    Mr. Bergeron?

      TESTIMONY OF MR. DAVID A. BERGERON, VICE PRESIDENT, 
    POSTSECONDARY EDUCATION, CENTER FOR AMERICAN PROGRESS, 
                        WASHINGTON, D.C.

    Mr. Bergeron. Thank you, Chairwoman Foxx, Ranking Member 
Scott, and Ranking Member Adams, for the opportunity to appear 
before the subcommittee today.
    Many years ago, when I was--when the Pell Grant program was 
in its second year, I was fortunate enough to receive a grant 
to cover most of the cost of attending the University of Rhode 
Island. My parents could not afford to have two children in 
college, and a year later a third, enrolled even in a public 
college, at the same time. If it hadn't been for that support, 
I wouldn't be here testifying today, and I know there are 
millions of other students who followed me since then, 
receiving support.
    Bit about the Center for American Progress: CAP is an 
independent, nonpartisan policy institute that is dedicated to 
improving the lives of all Americans through bold and 
progressive ideas. Postsecondary education plays a critical 
role in enabling citizens to climb the ladder of economic 
mobility.
    The federal investments in higher education have paid 
dividends. Since the 1970s, the college-going rate for low and 
middle-income students has grown dramatically, and enrollment 
now reaches 28 million students per year. Without investments 
in Pell Grants, student loans, and other federal programs like 
the support that is provided to historically black colleges and 
universities, these increases in enrollment and college-going 
rates among students from low and middle-income families would 
not have been possible.
    College education continues to be the best deal for 
students who graduate, but investments in higher education also 
pay dividends for the broad society. Workers who have some 
college earn more than those who just have a high school 
diploma, and studies have shown that for every 1 percent 
increase in the share of a population of a state that holds a 
bachelor's degree, the earnings of those who drop out of high 
school or drop out of high school also increased by 1.9 and 1.6 
percent, respectively.
    There are troubling signs, making it urgently important for 
us to do more. First, experts show a shortfall--project a 
shortfall in the number of college-educated workers of 5 
million by 2020, when 65 percent of all jobs will require a 
bachelor's degree, or an associate's degree, or some other 
education beyond high school. This is especially true for 
middle school jobs that require more than high school--a high 
school diploma but less than a bachelor's degree.
    Second, the growing levels of student loan debt, as 
institutions continue to charge more. And I applaud the efforts 
made by Governor Daniels to restrain increases at Purdue. And, 
as was noted, many other institutions are following his lead. 
The tuition increases in recent years have left significant 
gaps in funding for students and families, and private loans 
have often been used to fill that gap.
    One of the reasons that we have seen these gaps in funding 
is because states have reduced their support to their public 
community college and 4-year community--colleges and 
universities, in which three-quarters of our students enroll 
today.
    To combat the erosion of state support, which has resulted 
in increases in tuition and fees and student loan debt, the 
Center for American Progress has called for the creation of a 
public college quality compact that would ensure that students 
have access to affordable education and are able to earn 
credentials and degrees. President Obama's proposal to make the 
first 2 years of college free at community colleges is an 
important step forward, as our work has shown that community 
colleges bore the brunt of the spending cuts in public higher 
education in recent years.
    But we need to go further. The center has called for the 
creation of a College for All program that would ensure that 
all families would have access to financial aid and through 
which students would repay some of that aid in--through wage 
withholding.
    Finally, we have called for improvements to the quality 
assurance system in American higher education. Today we rely on 
accrediting agencies and--to ensure that our institutions of 
higher education deliver high-quality programs, but too often 
our institutions fail our students and they saddle the students 
with too much debt. And we also hear from employers that those 
who graduate just don't have the basic skills that are needed 
for the workforce.
    Thank you for the opportunity to be here today, and I am 
happy to answer questions.
    [The testimony of Mr. Bergeron follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Foxx. Thank you, Mr. Bergeron.
    Mr. Bennett?

TESTIMONY OF MR. MICHAEL J. BENNETT, ASSOCIATE VICE PRESIDENT, 
FINANCIAL AID SERVICES, ST. PETERSBURG COLLEGE, ST. PETERSBURG, 
                            FLORIDA

    Mr. Bennett. Chairwoman Foxx, Ranking Member Adams, and 
members of the subcommittee, thank you for inviting me to 
testify. I am very proud to be here today as a financial aid 
professional who has spent the last 34 years in a profession 
that has an undying commitment to serving students and 
families.
    The United States has the most diverse system of higher 
education in the world, and that is what makes it unique, 
enviable, and strong. However, it is this very facet that makes 
a one-size-fits-all model of student aid impossible. The 
varying types of institutions, student demographics, and 
reasons for pursuing a postsecondary education make it 
impossible to enact a simple financial aid policy.
    My focus will be on the simplification of 3 areas: 
application process, loan repayment, and over-borrowing and 
loan counseling.
    When we talk about the need to simplify the federal student 
financial aid application process we are not simply talking 
about the number of questions on the FAFSA, but the efficiency 
and experience of the entire application process. Most of us 
would agree that 110 questions is excessive. By eliminated 
questions not related to student aid and fully utilizing 
technology and existing federal and state systems, we could 
eliminate a number of the questions, making the process much 
easier for our neediest students.
    However, we must work together to be sure there are not 
unintended consequences such as states and institutions being 
forced to develop their own forms if they don't have enough 
information to make their awards. The fewer data elements we 
collect the more homogenous everyone appears, making it 
impossible to differentiate those who appear needed from the 
truly needy.
    We currently use a prior year income to determine financial 
aid eligibility, but a move to 2 years back--what we refer to 
as prior year income--has several advantages.
    Under PPY, students would be able to file the FAFSA earlier 
than they do now and it would be based on an accurate tax 
return. Verification burden for both students and institutions 
would be dramatically reduced through an increased use of the 
IRS Data Retrieval Tool. Students would receive notification of 
financial aid packages earlier, allowing financial aid 
administrators to spend more time counseling students.
    The secretary of education already has the authority to 
adjust the year of tax data used to determine federal 
eligibility. In this reauthorization we want to see that 
``may'' turned into a ``must.''
    Currently, there are eight repayment plans available to 
students, and I join others in recommending one plan based on 
income, where delinquent borrowers could be automatically 
enrolled, payments would be a certain percentage of 
discretionary income with a forgiveness term, and a standard 
10-year repayment plan of which 70 percent of student/parent 
borrowers are already in. These changes wouldn't eliminate loan 
defaults entirely, but simplifying repayment for students would 
certainly decrease default rates.
    Currently, the Telephone Consumer Protection Act is being 
interpreted to prohibit student loan servicers and schools from 
using technology to make students aware of their repayment 
options via their cell phones, texts, and social media. That 
must change.
    Most are not aware that financial aid administrators are 
currently prohibited from requiring additional counseling and/
or limiting borrowing for federal loans. Loans are considered 
to be entitlement dollars, and a school is not able to require 
additional counseling even if their records show that the 
student could be in serious financial trouble.
    An example: the transfer student that is able--about to 
borrow more than half of their undergraduate aggregate limit 
and has not yet completed an associate's degree or 60 credit 
hours. We must provide financial literacy, additional 
counseling, and the availability of personalized services.
    Related, we urge Congress to amend the Higher Education Act 
to provide authority to institutions to limit annual and 
aggregate student loan levels to certain broad categories of 
non-protected classes of students to address over-borrowing. 
For example, many of us at low-cost institutions would want to 
be able to prorate loans for all part-time students.
    To further address the needs of nontraditional students, 
accelerated learning, and to reduce student borrowing, Congress 
should work to make Pell Grant more flexible by allowing 
students to access the Pell Grant year-round and authorize a 
``Pell-Well,'' which would allow students to draw down funds as 
needed over 6 years of full-time equivalency.
    In closing, I believe that access, simplification, and 
accountability can coexist in our student aid programs. As a 
financial aid administrator, I have felt responsibility to my 
country, state, trustees, and most of all, the students and 
families we have served since the day we opened our doors.
    Let's continue to work closely, ensuring that there is 
training, guidance, and the very best systems, programs, and 
experiences for our nation's students and families.
    [The testimony of Mr. Bennett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Foxx. Thank you very much, Mr. Bennett.
    I now recognize Dr. Roe for 5 minutes.
    Mr. Roe. Thank the chairman. And also, Chairman Foxx, I 
want to thank the members who offered me condolences and 
support during this very difficult time in my life and the 
passing of my wife last week.
    Governor Daniels, I want to welcome you. And the reason I 
can understand you is you spent the first 6 years of your life 
in Blountville, Tennessee, which is about 10 miles from where I 
live now, and that is why you have got so much common sense. I 
am sure that is the reason. You have a Tennessean by birth.
    Mr. Daniels.--but we lived on the Blountville Highway.
    Mr. Roe. I know exactly where you lived. We are glad to 
have you back today.
    One of the things I want to address fairly quickly is I had 
the privilege of serving on two foundation boards of state 
colleges--Austin Peay, where I went to college; and East 
Tennessee State University, where I live now, in Johnson City, 
Tennessee. I have a huge commitment to the public education 
system. My father was a factory worker; my mother, who is still 
living, lives with me, 92 years old, was a bank teller.
    I was able to go to college and medical school with a 
factory-working father--I lived at home, worked--and graduate 
with no student loan debt. I think about that today.
    Now, look at the cost today, and our governor in Tennessee 
and our legislatures recognize, and we 100 percent agree with 
all your testimony, to be competitive it is going to require 
skills right now that we don't have in Tennessee. So he 
proposed the Tennessee Promise, where any student who graduates 
from high school can go to community college for free in our 
state or to technical school. And we paid for that using our 
lottery money.
    And if you look in our state--and Governor Daniels, you are 
to be commended for freezing tuition. Higher education now has 
gotten to be outrageous.
    When my wife was in the hospital I had a chance to speak--
and I taught at the medical school, but I had a chance to speak 
to several medical students who would come by. One student had 
graduated with a $290,000 debt. The average graduate of the 
University of Tennessee has over $22,000 in debt, which is a 
lot less, but in professional education it is becoming 
impossible.
    Young people making decisions about what kind of doctors 
they want to be not on what they want to be in their heart, but 
can they pay the loans back. That is very bad for the future of 
this country.
    So we are looking to you, as the thought leaders in 
education, to be able to help us. And I think the state level 
is where it starts; I don't think it starts at the top down.
    And I have jotted just a few things down. I think Dr. 
Keller mentioned and Governor Daniels mentioned, where 
regulatory costs--you mentioned the Vanderbilt study I am 
familiar with. If you would sort of extrapolate on that a 
little bit, and what would you recommend to get rid of those so 
we can get rid of some of those costs for you all.
    Mr. Bennett, I could not agree more. I know you probably 
have seen students get into trouble. You mentioned several 
things that make absolute sense to me.
    A more flexible Pell Grant, again, makes sense. It makes 
sense to financially counsel a 19 or 20-year-old about what 
debt you are taking on. I mean, you don't--when you are 19 or 
20, if it is Monday, Friday is a long time. You are not 
thinking about ever being 30 or, heavens forbid, my age.
    So I think those recommendations we need to do. By 2020, I 
heard the comment that 65 percent, for us to be competitive in 
the world, are going to need some form of education past high 
school. We believe that in our state, so I want to just mention 
those things.
    And I think, Mr. Bennett, you are also recommending--
Senator Alexander has done the same thing--this questionnaire 
with hundreds of questions, ridiculous. We need to simplify 
that for you and the students.
    I will just stop and let you all--any one--Governor 
Daniels, you can start and, Dr. Keller, you can go ahead with 
the three things I--that you all recommended to us.
    Mr. Daniels. Well, amen to all that, Congressman. And I 
will simply say that the--we can make a difference here.
    Debt among Purdue students is down 18 percent, which 
translates to $40 million. That is our undergraduate--current 
undergraduate population in the last couple years.
    Some of that is because the cost was contained, but a lot 
of that is because of counseling of the kind Mr. Bennett and 
others have spoken to here. It is awfully important, and being 
reminded that there are actually constraints on these very 
important conversations certainly points us to one important 
lever we have for short-term improvement in the burden that 
these--too many of these young people do leave with.
    The FAFSA, which I have taken to carrying around because 
people don't believe it when you talk to them about it, to show 
them. My suggestion about the FAFSA is not to start by asking, 
``What can we prune?'' but ask the question, ``What must we 
have?'' If there are 110 now--I know there are at least two 
questions there we have to have, but I am not sure how many 
more than that there are, and it is very, very encouraging to 
hear members of both sides speaking as consistently as you have 
about these questions and others.
    Mr. Roe. Thank you. I yield back.
    Chairwoman Foxx. The gentleman's time is expired.
    I now recognize the ranking member of the full committee, 
Mr. Scott?
    Mr. Scott. Thank you. Thank you, Madam Chair.
    And I would like to ask Mr. Bergeron the first question, 
and that is the Pell Grants, as I understand it, many years ago 
paid about 85 percent of the cost of attending a state college; 
now it is under a third. And further, no Pell--no summer Pells. 
Can you tell me the consequences to the low-income college-
going rate with the trend in Pell Grants?
    Mr. Bergeron. So, thank you, Congressman Scott.
    You know, when we look at what happens to low-income 
students attending our public colleges, today, as a result of 
the Pell Grant not keeping up with the cost, there is a gap of 
about $7,000 in their aid budget that they need to fill. And 
often our low-income and middle-income students really don't 
have the ability to do that. They can't go out and find jobs to 
fill that gap.
    And so in the last several years, as we have seen college 
costs at public institutions increase as states have 
disinvested, we see the great progress we have made in getting 
more of our low and middle-income students to go into college 
beginning to slow. And so that is a troubling trend, given the 
data we see that suggests that more and more of our jobs are 
going to require some college education.
    And so we need to find a way to address that growing gap. 
Summer Pell, two Pells in an award year, is a way to begin to 
address that problem by encouraging our students to accelerate, 
but we honestly need to do a lot more for our low-income 
students if we expect them to go into college.
    Mr. Scott. Can you say a word about the importance of the 
TRIO programs, especially Upward Bound?
    Mr. Bergeron. So I have to say this with a little bit of 
care. My wife has worked with the Federal TRIO programs for 
many years at the U.S. Department of Education, where we met--
    Mr. Scott. Well, since we are doing full disclosure, when I 
was in college I was an Upward Bound counselor.
    Mr. Bergeron. You know, yes, I have to say that programs 
like Federal TRIO, particularly Upward Bound, have made a huge 
difference. The most significant impact I see in the Upward 
Bound program is the pushing our low and middle-income--low-
income, first-generation students to immediately enroll in a 4-
year college. When they get to a 4-year college they are much 
more likely to complete that 4-year experience and walk out the 
door with a degree with a minimal amount of debt because they 
are in institutions that are committed to their success.
    And so I think programs like TRIO are critically important.
    Mr. Scott. Thank you.
    President Daniels, there has been some suggestion that cost 
of college has only gone up with inflation but the price that 
people have to pay has skyrocketed because the states are 
paying less of the total cost of the education. Can you make 
a--can you comment on that?
    Mr. Daniels. Well, first of all, all the data I have ever 
seen shows that the cost of college has risen much, much faster 
than the cost of inflation. In fact, the only two items in 
the--in most indices that have risen faster than the cost of 
health care, which we are all very cognizant, are college 
tuition and college room and board.
    And a lot of factors have been driving that. The so-called 
amenities arms race. Colleges don't look like they did 20 or 
even 10 years ago.
    There has clearly been, however, as we discussed here, some 
upward cost pressure generated by the need to comply with 
federal rules that are complex, that are often redundant, and 
in many cases, on the receiving end, appear unnecessary. So, 
you know, there--a lot of criticism, I think rightfully, has 
been directed at the increase in administrative costs on 
campuses. I think it doesn't--
    Mr. Scott. Several decades ago, it is my understanding that 
states were paying about two-thirds of the cost of the public 
education; now it is down to about one-third.
    Mr. Daniels. Yes--
    Mr. Scott. That would account for about--
    Mr. Daniels. And that has been a--
    Mr. Scott.--doubling the cost--
    Mr. Daniels.--depending on the states. You know, the state 
I come from was third in the nation in maintaining its support 
for higher ed, but there are many other states where drastic 
cuts have occurred.
    I will say that, given the rising cost of tuition and other 
fees, it would have been very hard to keep up, in many states, 
to keep up with the per-student increase.
    Mr. Scott. Thank you.
    Mr. Daniels. Not excusing or defending--
    Mr. Scott. Well, if they are down to one-third and were 
paying two-thirds, that would, by itself, with no other 
increase, account for a doubling of the price of college.
    Mr. Daniels. If that were the only factor that would be 
true, but it is only one among many. And I think the 
responsibility for the difficulty students are having now has 
to be shared.
    Mr. Scott. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you.
    Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chair.
    It is interesting, I had some students in my office 
yesterday. The student government associations from the ACC 
schools are in town, and I have an ACC school, Louisville, in 
my state, and so I met with them yesterday and they came about 
costs of college. I have two kids in college and one on the 
way, so cost of college is something that myself and the 
parents I am around, because I am around parents my kids' age, 
talk about quite a bit.
    And, you know, I know that the president talked about in 
the State of the Union, which was mentioned about making 
college--or community college free for the first 2 years, and 
he mentioned Tennessee. Well, Tennessee made choices. They made 
choices to use lottery revenues that they made.
    And also the president I think was going to change the 
529s, which I will tell you there are a lot of people that 
incomes are too high to get a lot of financial help but not 
high enough to write $50,000 checks on an annual basis just out 
of income that need savings programs. So, you know, you are 
doing--states make choices.
    Kentucky chose to do their lottery money through 
scholarship to students; Georgia, the HOPE Scholarship, which 
was trying to make 4-year college free. I think they have had 
to walk back on some of that. I don't know the details of it 
directly.
    But it gets to what Mr. Scott was saying, that states make 
choices. And, you know, Kentucky chose to expand Medicaid, and 
Medicaid that will have substantial impact on this year's 
budget because of what we think is a significant woodwork 
effect. It is not 100 percent to 2 or 3 years in the future; it 
is real money now.
    I was in state government. Our first budget in 2000--first 
budget I was there in 2000 the biennium 2-year budget was $13 
billion almost. Last year it was almost $19 billion. So we have 
gone up a little over--almost $6 billion and cut colleges.
    And then the students' number one want to know what the 
federal government is going to do for affordability of college, 
and we all need to be in it together because it is expensive. 
But you can't have states making those kind of decisions, 
choosing to spend state tax dollars elsewhere and then rely on 
the federal taxpayer to come in and solve it all.
    And it seems like we always look just a little north of the 
river, when you were governor, and now that my colleague, Mike 
Pence, is governor. So my question is, you said your room and 
board is down 10 percent and you have frozen tuition, you are 
investing, debt is down 40 percent, and from your experience 
as--from your state experience and now, how has the state 
budget interacted, how have you been able to do that when most 
schools across the country--so if one school can do it, why 
can't others?
    Mr. Daniels. Well, our university, again, is more fortunate 
than some, because state support, which it dipped slightly 1 
year during the recession, has otherwise risen modestly and, 
compared to other states, has held up better than most. But I 
think you put your finger on the problem.
    I am referring back to my last job, really, here, but one 
reason in Indiana, for instance, education is a larger share of 
the state budget than in any other state in the union--about 
two-thirds of the entire state budget. More than 50 percent to 
K-12 and about 12 or 13 percent to higher ed, last I looked.
    And the only reason that is possible is because choices 
were made. The Medicaid program did not explode and eat the 
rest of the budget, as it often has. Corrections have been 
carefully managed. And so it has left a little more room.
    But that has not prevented tuitions from rising very, very 
swiftly--faster than inflation. And I know it is driven in many 
cases by competitive pressures, trying to attract a different 
kind of student today. I know it is driven, as we have talked 
about here, in large part--one study has shown that a third of 
the increase in administrative jobs is related to federal 
compliance and--federal and state compliance, I should add, 
plays some role there.
    So a mix of factors, but I think that even as we are here 
asking that the committee and the Congress seize this 
opportunity to modernize the law, I think those of us in higher 
ed have to accept a significant amount of the responsibility to 
modernize our own practices.
    Mr. Guthrie. Well, thank you. Did you have substantial--and 
universities in Kentucky have done a--not the University of 
Kentucky alone, universities in Kentucky have done a 
substantial job in raising outside resources, as well, which is 
something that I don't think we did 20 to 30 years ago, focused 
on, at state universities, anyway, is raising financial outside 
contributions, so it is good.
    You also said if we--the $20 billion rules could--$20 
billion worth of rules could educate 20,000 Hoosier students, I 
guess some Boilermakers, too?
    Mr. Daniels. Well, that is right.
    Mr. Guthrie. I know you are using that generic for 
Indianans, right?
    Mr. Daniels. Well, yes, I meant--what I really meant was 
that at our in-state tuition is different than our out-state 
tuition. Our in-state tuition is just south of $10,000, so that 
is where I get a figure like 20,000 of our--
    Mr. Guthrie. I think all of you and all of us want to make 
college more affordable in whatever role we have, but it is 
particularly at the state level, we need to make sure that our 
state policymakers don't just look to us to bail out students.
    Thank you.
    Chairwoman Foxx. Thank you.
    Congresswoman Adams?
    Ms. Adams. Thank you very much.
    Mr. Bergeron, you talked a bit about the important role 
HBCUs play in our higher education system. From my experience I 
know that those schools are well-equipped to support the unique 
needs of their students, and so as we look toward reauthorizing 
the Higher Education Act, I believe that we have to be more 
thoughtful about how we measure the success of these 
institutions.
    Research shows us that HBCU graduation rates compare 
favorably with other institutions when student level factors 
are taken into consideration. But our current success measures 
do not make special consideration of colleges and universities 
who primarily serve low-income, first-generation students who 
may not otherwise have attended a 4-year institution.
    So I wonder if you could share your thoughts on how we 
should account for the differences in student populations when 
we determine the success of our institutions of higher 
education and what we can do to highlight the successes that 
are taking place at HBCUs.
    Mr. Bergeron. So, thank you, Congresswoman Adams.
    I think one of the things that is really important for me 
is that historically black colleges enroll about 375,000 of our 
undergraduates today. That is an impressive number for that 
sector when you think about the relative size of those 
institutions. They tend to be smaller; they tend to be more of 
learning communities that support the best success of their 
students.
    And so one of the things that we know about them is that 
they are very intensive institutions, in terms of the education 
they provide. That is one of the reasons that they are 
successful.
    But they are institutions that enroll students who come 
from low-income and from disadvantaged backgrounds, and--who 
need extra support. And so the institutions are structured that 
way.
    You know, when I wrote about what does value look like in 
higher education about a year ago, one of the things I said 
there is that we need to give special consideration, special 
focus on institutions that provide access and are affordable, 
and that is exactly the type of institution that I am talking 
about. And we should assess them in relationship to other 
institutions that are like them. We shouldn't judge them 
against institutions that are well--that have tremendous 
resources and which enroll students who are less disadvantaged 
and less well-prepared.
    And so I have argued for assessing them within categories 
that are similar and serve similar types of students. My 
colleagues at the American Public Land-Grant University 
Association have been arguing for an input-adjusted metric. I 
am not vehemently opposed to such a metric. It troubles me a 
bit.
    We talk about it quite often. They are just my next door 
neighbors over on H Street, and so we have great opportunities 
to chat about this. But we do need to do something to take that 
into consideration, to make those comparable across different 
types of institutions and--
    Ms. Adams. Thank you very much. I was one of those 
students, so I appreciate your comments.
    Mr. Bennett, I want to ask you a question about Parent PLUS 
loans, because they are an important part of our financial aid 
package for many of our students. Now, according to UNCF, 
United Negro College Fund, since 2011 HBCUs have lost over $155 
million in federal support due to the restrictions on Parent 
PLUS loans, which I think now are a minus.
    But when the problem first surfaced in 2012, initially 
400,000 students across the country, including 28,000 at HBCUs, 
were rejected for these Parent PLUS loans that they had 
received in previous years. Parents should not take out 
excessive debt, but these loans have a low default rate 
compared to Stafford Loans, and the government really recoups 
almost all that they put in.
    In light of these factors, what do you believe we should do 
about it? Should we return to the pre-2011 Parent PLUS 
borrowing requirements that might help students? What are your 
thoughts?
    Mr. Bennett. I think you explained it very well, that when 
those borrowing requirements changed a lot of people lost 
access to those loans. So at our institution we are relatively 
low-cost, so we do not do a large number of PLUS Loans. I 
wouldn't want to give the wrong information; I don't know if 
someone else could help me out on this.
    Ms. Adams. Do we have a second for someone else--Mr. 
Bergeron?
    Mr. Bergeron. So I was involved in Parent PLUS when I was 
at the department and very aware of the disruption that 
occurred. You know, the concern we have to have is that we 
don't want parents to take on excessive debt, and so we need to 
be looking not just at their, you know, their credit history, 
but their ability to repay the amounts of money that they are 
borrowing and treat it much more like a traditional credit 
program.
    That, I think, would go a long way to address your concern.
    Ms. Adams. Thank you. I am out of time.
    Thank you, Madam Chair.
    Chairwoman Foxx. Thank you.
    Ms. Stefanik, you are recognized for 5 minutes?
    Ms. Stefanik. Thank you, Chairwoman Foxx.
    Thank you, to the panelists who are here today.
    This issue is near and dear to my heart for the obvious 
reasons. I think I have a few decades closer to college than 
some of my colleagues here.
    So I wanted to start off--that is not--wisdom. You have 
wisdom. I have innovation.
    I wanted to ask Governor Daniels about your efforts and 
your record of being able to freeze tuition by rethinking your 
budget. Can you describe some of the specific tactics that 
Purdue has employed to reduce costs and maintain that tuition 
freeze? And the follow up is, can those tactics be applied to 
other higher education institutions?
    Mr. Daniels. Well, we don't claim, first of all, to have 
done anything really dramatic yet. We think we have a lot more 
work ahead of us.
    But just to give you a few examples, many institutions--and 
ours is typical in this respect--have been very I would say 
balkanized, or the people say stovepiped. There are a whole lot 
of things being done in multiple places that can be done in 
one.
    A great example with a lot of zeroes attached is 
information technology, and as we consolidated and centralized 
that we not only saved a lot of money but we believe we are 
providing better service than ever, higher quality. No one had 
looked at our health care plan for a long time, and we were 
able to modernize that in a way that has reduced premiums for 
the vast majority of our faculty and staff, but also by 
introducing consumerism into the plan, has shown some above-
projection savings so far in reducing utilization.
    But, you know, what I would say is that certainly on a 
campus like ours--let me just make this point. We are a land-
grant university, proud member of the APLU.
    And we were put there by a predecessor Congress for two 
reasons. One was to teach the tools of a growing economy to 
more citizens; but the main goal was to throw open the gates of 
higher education beyond the wealthy, beyond the elites and the 
privileged. And we still feel that responsibility very acutely.
    And across our campus when we said, ``Let's try something 
different. Let's try to break from this pattern of annual 
increases and see how we can manage,'' we go tremendous buy-in. 
We opened hotlines and hundreds of staff suggested ideas large 
and small. Many people voluntarily decided to forego a pay 
increase.
    And so we have had, I think, a good collegial spirit about 
this. It is part of the ethic of who we are.
    But I would not over-claim at this point. We have managed 
some progress, but we are still not an inexpensive school to go 
to. We still worry about students--making sure that students at 
any income level who can meet our standards can come to Purdue.
    Ms. Stefanik. I think there are a number of lessons that 
are learned from what you have been able to do even though it 
is a tuition freeze and we are not completely grasping the 
long-term challenges of college affordability. It is a model 
for other higher ed institutions across the country.
    And if I have a few more--do I have time for a follow up?
    Okay.
    I wanted to ask you about your flip-the-classroom efforts. 
And to me, that is a tool of a growing economy in rethinking 
how we deliver education. Can you expand on that?
    Mr. Daniels. Sure. We didn't innovate it, but we are trying 
to apply it as fast as we can and have been recognized for 
this.
    We are talking here about--it is really a spectrum of 
changes, but you used the term that we are--people do use, the 
``flipped classroom,'' meaning that in one form the student 
will no longer attend lectures with hundreds of students all 
hearing the same things at the same time; that lecture will be 
available electronically to be viewed at a time and place that 
the student chooses, to be viewed over and over again if it 
didn't--wasn't understood the first time. Then the classroom 
time is spent testing understanding or perhaps working on 
projects to see if that learning can be applied.
    And we have data at Purdue, because we have done this in 
more courses than most places, that says it does work. We have 
data that says students warm to the learning experience more 
than the traditional mode.
    However, just to make this point, it is not--it is probably 
not less expensive to do. For instance, the square footage you 
need per student to operate this mode, as opposed to 400 people 
in one giant lecture hall, is greater.
    So it can be in tension with our affordability goals, but 
so be it. The real goal--we always say at Purdue, ``Higher 
education at the highest proven value,'' and the quality of the 
education is the numerator; cost, which we do pay a lot of 
attention to, is just half of that equation.
    Ms. Stefanik. Thank you very much.
    I yield back.
    Chairwoman Foxx. Thank you.
    Mr. Courtney, you are recognized.
    Mr. Courtney. Thank you, Madam Chairman.
    And again, it is nice to see actually a group of witnesses 
from diverse backgrounds where there is some overlap, in terms 
of just the ideas that are being put forward, and that 
provides, I think, the committee with a lot of good, you know, 
foundation for hopefully a bill that is going to move forward 
this year. It is a couple years late and it is time to move.
    And, you know, FAFSA reform, financial counseling and 
education, year-round Pell Grants, again, that has been a 
recurring theme here today, and I want to thank all the 
witnesses for doing that.
    You know, one of the issues that I think Dr. Roe mentioned, 
or problems, and it is--we all hear it up here, and you do even 
more so, is the horror stories of high debt upon graduation--
$290,000. What I think is frankly even more horrifying is when 
people are graduating with high debt and what you would I think 
almost call junk degrees, because the, you know, ability to 
convert that into gainful employment in many instances makes it 
just a trap that is going to be for a lifetime.
    And, you know, when we talk about the Department of 
Education's Title 4 budget, which is about $150 billion a year, 
you know, we have got to come up with some systems here to make 
sure that at the front end of the system, when people are 
making decisions, that they understand, you know, what is going 
to be there at the end of the process. And, you know, I realize 
that there--this is a tricky business, you know, it is a very 
diverse system of higher education. Connecticut, just like all 
the other states, has, again, you know, an outstanding array 
and can't all be judged with a one-size-fits-all.
    But, you know, Mr. Bergeron, I mean, at some point this has 
got to be provided for kids, you know, when they are making a 
life decision that is the equivalent of buying a house if not 
more. And I just wonder if you could sort of, you know, respond 
to that.
    Mr. Bergeron. I think you are absolutely right. We are 
calling on our young people to make very complex decisions with 
very limited information about what is going to happen in the 
future, and it is really tough.
    My daughter graduated last May from Tulane University, and, 
you know, she was very fortunate. As I mentioned, my wife works 
for the Department of Education; I worked there for many years. 
I know more about higher education than most people in the 
country, and it was hard to guide her in her choice, especially 
because we don't know a lot about what happens to students 
after they graduate--what are their earnings outcomes, you 
know, what is their success transferring to--going on to 
graduate school, medical school.
    And so we have got to develop the kinds of information, the 
kinds of data systems that support our understanding of those 
transitions, and to understand what happens afterwards, in 
terms of their entry into the world of work.
    When I was at the department I worked on gainful employment 
regulations--very controversial issue, something that has 
caused a lot of dissent around the country. But what we were 
trying to get at there, and what I think is critically 
important, is that we understand what the earnings are for our 
graduates. At a program level, at an institution level, we need 
to know that for profit colleges, the issue of--that we were 
dealing with then; but we need to know it more broadly so that 
students can make better-informed decisions.
    Mr. Courtney. And I just think it is something that, you 
know, my experience with the land-grant college in Connecticut, 
University of Connecticut, which sadly didn't make it to the 
playoffs this year, the big dance, but, you know, they embraced 
the notion that they are going to be held accountable. And 
again, with the amount of money that is coming out of the U.S. 
Department of Education--and frankly, I think that is not an 
unreasonable requirement to put into place.
    The last thing I just want to sort of touch on is, again, 
Governor Daniels, your comments on page two regarding the sort 
of economic fallout of the high debt that 20, 30, and frankly, 
even older Americans are carrying is, again, a bigger issue 
even than their own predicament; it is hindering economic 
growth in this country.
    And that is why, frankly, I think we--I was looking at this 
morning's 10-year treasury notes are 2.13 percent; 30-year 
mortgages, 3.86 percent. There are a lot of people carrying 
even Stafford Loans at 6 and 8, you know, in terms of the PLUS, 
and we have got to come up with a system to refinance down.
    That is how we get through, you know, economic downturns in 
the, in terms of allowing middle-class families to refinance 
their houses. We have got to have a mechanism to bring down for 
all individuals, not just those covered by income-based 
repayment.
    And I just want to, again, be on record. We are going to be 
introducing a bill in a few days, which is going to basically 
allow that process to happen for both public and private 
student loans out there, which, again, I think will benefit the 
entire economy.
    And I was just reminded by my good friend from Colorado 
that the UConn women Huskies, however, will make sure our state 
is well-represented, and he just saved me from getting into a 
lot of trouble. So did my ranking member, who is watching my 
back.
    I yield back.
    [Laughter.]
    Chairwoman Foxx. I won't touch that--
    [Laughter.]
    Mr. Messer, you are recognized for 5 minutes.
    Mr. Messer. Well, thank you, to the panel.
    And I think this is such an important conversation. You 
know, for most of the last several decades, from a federal 
policy perspective--and much longer, as the governor mentioned, 
from the--dating back to the beginnings of the land-grant 
institutions, our federal policy has focused on student access 
to higher education and not necessarily being very focused on 
student success.
    And, you know, for most of the last several decades that 
was okay because having some college meant that you were better 
off than no college at all, and every actuarial table that 
looked at it showed that. And that has changed now.
    In today's economy if you don't have a degree in a value-
added subject matter that contributes to the economy you are 
not better off economically, and you could be worse off, if you 
are saddled with tens of thousands of dollars of student debt. 
And so I think we have to focus on not just access, which is 
important, but in delivering success for the students that are 
accessing the system.
    And from my days working with now President Daniels and 
former Governor Daniels, one of the keys, I believe, to that is 
metrics, measuring. You get what you measure in life.
    And so I was hoping that the governor could talk a little 
bit about the Gallup-Purdue Index and how it measures student 
success, exciting innovation, could you talk about that a 
little?
    Mr. Daniels. We agree strongly with the point that Mr. 
Bergeron made and others have made that--and when I talked 
about higher education at the highest proven value, the point 
is that until fairly recently people were not studying or 
quantifying the outputs. Oh, we looked to see that college--we 
saw that college graduates tended to earn more money and so 
forth, but we didn't know much more than that.
    And yes, we started out at Purdue simply looking for a way 
to measure more accurately the success of our graduates, which 
we suspect was high but couldn't prove, and wound up in a 
project with Gallup, which led to the largest benchmark survey 
ever taken of college graduates, and there are a lot of 
interesting things we can all learn and will continue to learn 
from that--the idea then being that schools that wanted to, 
like ours, could go out and parallel, contemporaneously, 
measure their own graduates.
    We were delighted to see that in every measure of well-
being--it is not limited to financial--that Boilermakers were 
doing even better than the average college graduate. So thank 
you for leading the witness.
    But I will just say one other thing before switching off, 
that we pay a lot of attention to the metric of default rates 
because, as various members of the panel have said, the first 
question is how much is being borrowed; but the final question 
is, can the borrower successfully manage that financially in 
their life? And that goes a lot to the quality of the education 
and maybe the nature of the degree they got. And so that is the 
one we pay the most attention to.
    And the last point, I am sure well known to people here, 
but if you graduate from our school--you graduate from our 
school you have almost a 0 percent chance of defaulting; it is 
down around 1 percent now. The problem that we have to watch is 
those who came to our school, as you were talking about 
Congressman, and did not finish. That is where a higher rate of 
default is, and that is where I think some of these real 
lifetime hardships are being experienced.
    Mr. Messer. And, Governor, could you talk a little bit 
too--one of the ways to tackle student debt is in constructing 
programs where students don't graduate in 5 years or 6 years, 
but potentially even in 3 years.
    Mr. Daniels. The reason we are so interested in 3-year 
degrees is that not only can a student move through more 
quickly and affordably, but don't underestimate the importance 
of one extra year in the workforce, earning money and 
compounding over a lifetime. It is a material factor, too.
    So yes, any changes that take obstacles out of the way or 
facilitate that, most welcome.
    Mr. Messer. Great.
    I want to take a minute and ask--talk to Dr. Keller. I 
don't have--not much time with the yellow light, but could you 
talk a little bit about--from, you know, your testimony you 
mentioned federal transparency efforts, trying to get better 
information to student consumers and how it can be so complex 
now it is difficult for students to wade through it.
    Ms. Keller. Yes. I would say that we do need to take the 
time to think about what is out there and really what metrics 
are really important, and we have mentioned several of them 
today--success in progress, earnings after graduation, 
employment, enrollment in graduate school, amounts of debt. So 
let's find out what those really important metrics are and take 
the time and effort to have those and deliver them to students 
when they need them rather than just putting them on a Web site 
and hoping that some will come and see them.
    Mr. Messer. Yes. Thank you.
    Chairwoman Foxx. Thank you.
    Mr. DeSaulnier?
    Mr. DeSaulnier. Thank you, Madam Chair. Nice job on the 
pronunciation.
    And I just want to thank all my colleagues and the 
witnesses. It is wonderful to be here, and this tone of a 
debate about something that is so important.
    So I have a couple questions, and I want to start, first of 
all, by saying as a member who is further removed from my 
memories of college than some of my colleagues, but having 
spent the weekend talking to my two sons, I guess that brings a 
more vivid perspective in another way. And I want to talk a 
little bit about not just the cost but the opportunities when 
people get out of college right now for a bachelor's degree, 
having spent 45 minutes with one of my sons yesterday as he is 
looking for work 5 years removed from college.
    So first of all, the urgency, I think just the numbers are 
staggering, that around 37 million student loan borrowers with 
outstanding student loans in 2013; that $1.2 trillion with over 
7 million debtors in default in 2014 student loan debt; the 
biggest growth in the program came in the past decade, as 
student debt rose an average of 14 percent a year, to $966 
billion in 2012 from $364 billion in 2004; that as of the first 
quarter in 2012 the average student loan balance for all age 
groups was almost $25,000; and that student loan debt is 
growing by $3 per second right now in this country. So the 
urgency of what we have in front of us and the cooperative 
spirit I am hearing in terms of the importance of doing 
something that creates more flexibility and more opportunity.
    Mr. Bergeron, I--in my lifetime I have been fortunate 
enough to own and manage businesses in both Palo Alto and 
Berkeley, coming from Northern California, and it always struck 
me doing that is the interconnectivity between the economy on a 
retail level, that the governor has talked about, and higher 
education.
    So it strikes me we have the idea of introducing a bill 
that would actually tie the prime rate to student loans, so I 
wonder if you have any comments about your idea of ``college 
for all,'' if that would be helpful.
    Mr. Bergeron. When we think about student loan debt and its 
impact on the economy, you know, the ability of people to--who 
have student loans to buy houses, buy cars, start new 
businesses, which is a critical driver of our economy, you 
begin to realize that it is really important that we stem the 
increase. So first of all, we need to find ways to reduce the 
cost of higher education, the kinds of things that we have been 
talking about, to slow that.
    But then we also have to deal with that $1.2 trillion, $1.3 
trillion in student loan debt outstanding. So the kinds of 
things we need to be thinking about are, you know, trying to 
figure out strategies to refinance that debt, lower the 
interest rate on that debt so that it is more manageable for 
students and families.
    Really important that we find ways to provide for greater 
range of repayment options even in the private loan programs. 
Things like income-based repayment that exist within the 
federal student loan system really don't exist within the 
private student loan market, and a lot of the concerns with the 
really high loan balances are people with a mix of federal and 
private loans, so we need to address that.
    And then to your point, we need to really think seriously 
about what to do about interest rates. When you use income-
based repayment plans you--each borrower ultimately gets a 
personalized interest rate that they can then figure out when 
graduate when they last pay off that loan.
    But it is really, you know, frightening to people to see 
that balance grow month to month, and so we really have to slow 
that increase by doing something about interest rates. Clearly 
the federal government can borrow at very low rates. Somebody 
mentioned the T-bill rate at 2.1, and there is no reason for us 
to be charging borrowers so much more than that in today's 
economy. We need to really bring that down.
    Mr. DeSaulnier. And then just a second general comment, if 
I could start with the governor.
    So we have meetings in my district with both students who 
go to a private school in the district of St. Mary's of 
California and go to the University of California, Berkeley, 
that is just outside of the district. The two telling things is 
all these kids do the right thing.
    In 2008 I remember these compelling stories about, ``I got 
a 4.0 in high school; I did extracurriculars. I always thought 
I would have a place in school. Without a Pell Grant or a Cal 
Grant I would not be able to be here. One of my parents lost 
their job in the recession.''
    So there is that part, and then the second part is the 
issue that I was dealing with my son is you get out of college 
and, unlike our generation, the likelihood of making a livable 
wage is pretty removed.
    So, Governor, just briefly, if you could respond to those 
two things?
    Mr. Daniels. Well, I don't know what to add, really, to 
what has been said. I think that the--it should trouble us all 
that--for a variety of reasons, and I think that the one we are 
here--gathered about here today is a big one, but not nearly 
the entire story.
    We do have a mismatch in the country, and the structural 
changes in the economy seem to me to be widening it, between 
the jobs the economy is calling for and the--at least in 
numbers that it would take to maintain a large middle class.
    And, you know, our answer, as just one institution, has 
been--we are making strategic investments. We are already one 
of the most STEM-centric, so to say, universities in the 
country, up there in a category with some of your great schools 
in your state. We are investing more heavily in that. We think 
it is consistent with our land-grant assignment originally--in 
the antique language, agriculture and the mechanic arts.
    Chairwoman Foxx. Governor?
    Mr. Daniels. The mechanic arts have come a long way, but 
this is really where the economy, we think, is based these 
days.
    We are making a lot of investments in--to get larger there 
and to train more people--
    Chairwoman Foxx. Governor?
    Mr. Daniels.--from our state or elsewhere. That is our 
contribution and we know it is only a partial answer.
    Chairwoman Foxx. Thank you.
    Mr. Allen?
    Mr. Allen. Thank you, Ms. Chairman.
    And I come from the 12th District of Georgia and we have 
got some very fine higher education institutions there. Very 
proud of those folks that they serve.
    I have been in the business world all of my life, and what 
intrigues me is--well, I--really two things. One is the fact 
Dr. Brooks Keel, at Georgia Southern University, testified 
before this committee last year about worker readiness, and for 
the--you know, for the 21st century.
    But what I did when I went to school--and of course, you 
know, every mom and dad has told their children this story--
well, I worked my way through college. Is that out of style 
now? I mean, one of the things that we looked at when we hire 
people is work experience, and really, it is more real-world 
work experience.
    For example, I worked in a steel fabricating facility as a 
welder, and, frankly, was well paid for that and was able to 
work two shifts, and I loved to work. And it, of course, taught 
you the value of hard work, made you study hard, and all that 
kind of stuff.
    But, you know, I hear about these student loans and the 
massive debt that we are building here, and then I also hear 
about these statistics of young people who are either 
unemployed or underemployed and really, at this stage, don't 
really know what they want to do.
    I was fortunate in that work placed me a position that I 
said, ``Hey, this is my sweet spot; this is what I want to 
do,'' and was able, then, to go on and get an education and 
into--start a business.
    So is there any possibility that we are going about this 
thing the wrong way? In other words, should we promote--I know 
I looked at co-oping at one time because I wanted to get as 
much work experience. And I will tell you, when we look at 
resumes of college graduates, that work experience counts a lot 
when we are going to hire a new graduate.
    So, Governor, would you care to comment on that?
    Mr. Daniels. Thanks. Well, first of all, I--high 
percentages of our students are working while they are in 
school; I don't think we are unusual in that respect.
    Second, while the co-op type experience has a long history 
at Purdue, it lends itself, I think, especially well to a 
school like ours, but we are acting to expand it as rapidly as 
we can. And you are quite correct--back to this Gallup-Purdue 
Index, one of the most--clearest findings was that those 
college graduates who had some such work experience--internship 
if not a full co-op type experience--while in school were doing 
substantially better than those who had not had that 
opportunity.
    So we know it works, and we are working hard to expand it. 
We have a number of companies that you have all heard of 
locating facilities on our around our campus and hiring our 
students to do real work, paying them rather well--better than 
we can to work in our cafeterias. But we can't do enough of 
this fast enough.
    Now, I will say that the run-up in costs--college costs--
has probably outstripped the ability of most students, no 
matter what kind of job they are able to secure, to defray as 
much of their college cost as you did or I did or people 
earlier on were able to do.
    Mr. Allen. As far as the business community, is there--do 
we have the business community plugged into our colleges the 
way they should be plugged into the colleges?
    Dr. Keller, or any member of the panel who would like to 
take that question?
    Ms. Keller. I know that one strong focus of a part of APLU 
is exactly that, is to provide a forum and an opportunity for 
our presidents to meet with the presidents of business, because 
that helps on several different fronts.
    One is back to the workforce readiness. What are the skills 
that employers need and how do you find that out? By having 
conversations with people. Also, finding out ideas about 
affordability and processes and new models that we can take to 
the businesses.
    So definitely. That is a very strong priority for us at 
APLU.
    Mr. Allen. Any other comments?
    Mr. Bennett. We have 10 campuses throughout our county and 
work very closely with business--
    Mr. Allen. Okay.
    Mr. Bennett.--identifying their need and looking short-term 
programs to get our students through and working.
    Mr. Allen. Because there are needs out there, and I believe 
my time is up, Ms. Chairman.
    Chairwoman Foxx. Your time is up.
    Mr. Polis, you are recognized.
    Mr. Polis. Thank you, Madam Chair.
    This first question is for Mr. Daniels.
    Western Governors University has a strong presence in 
Indiana, strong presence in my State of Colorado as well. And 
as you know, Western Governors operates on a different model 
from many other universities, a model that includes competency-
based education, where students advance based on how much they 
know, not how much time they spend in a classroom.
    I would like you to address your own experience with 
Western Governors as well as how competency-based education can 
reduce costs and improve the quality of curricular delivery.
    Mr. Daniels. Yes. Thank you, Congressman. I was drawn into 
WGU initially as a board member, became very much an admirer of 
its system, and particularly the niche it fills.
    We brought it to Indiana. I would call it a private label 
operation, called it WGU Indiana, and it grew very rapidly, and 
I know for a period of time represented something like a third 
of all the growth in the entire WGU system.
    Why? Because it really addressed an unmet need. The average 
student is 36 years old, more likely to be female and minority 
than the rest of our population, juggling family and work and 
other things, and able to study at his or her own rate, and 
with proven success, including measurement of post-graduation 
employment and how well they are doing.
    So I was proud of that association and have watched their 
continued growth and really with interest, and it really was 
where I was first exposed to the--both the advantages and the 
efficacy of competency-based education, which we are now trying 
to introduce in a more traditional context of Purdue.
    Mr. Polis. And I want to go to Mr. Bergeron with regard to 
that.
    If you could talk about how we can learn from Western 
Governors and how competency-based education could work for 
other universities to help reduce costs?
    Mr. Bergeron. Thank you, Congressman.
    So competency-based is a really--a dramatic game-changer 
innovation, in my view, in higher education. You know, the 
adoption by Purdue and the University of Southern New Hampshire 
and so many other institutions of that approach really is 
critical.
    And as we go forward and think about reauthorizing the 
Higher Education Act we really need to think about ways to move 
the conversation from the one where we have been stuck at, 
which is around what does the credit hour mean, to really what 
do we really expect our students to know and to be able to do 
when they graduate, and find ways to measure that as they 
progress.
    And if we can do that and effectively refocus our financial 
aid system on that, I think we will have a much more productive 
higher education system, and students, candidly, coming out 
with a lot less debt because they haven't wasted time studying 
things that aren't really helpful to their long-term goals and 
to their long-term development.
    Mr. Polis. Another cost-reducing innovation are open 
textbooks. As we have heard, not only do college costs continue 
to rise, but so do textbook costs. After somehow coming up with 
the tuition, all of a sudden a student is hit with another $500 
or $800 a semester to pay for textbooks.
    I want to address this first to Mr. Bergeron and then 
anybody else, how we could look at a policy that encourages 
open textbooks, where textbooks are openly licensed and free to 
students and faculty, and how that might help save money for 
students as well.
    Mr. Bergeron. So one of the things that exists in the 
federal aid system is the--this notion of cost of attendance, 
which includes books and supplies and other expenses. But that 
is on the student budget side.
    You know, we could think about changing the priorities so 
that, you know, it is more embedded in what institutions 
receive, in terms of payments, so that they are not passing 
those costs on to students, as consumers. I think that would 
dramatically change the economics of the textbook industry in a 
positive way in making textbooks more affordable to all 
students.
    Mr. Polis. It is fair to point out that the beneficiaries 
of the current economics of textbooks are not the people who 
write those textbooks, and in many cases, any compensation is 
nominal if it exists at all. And there would be, I think, 
widespread cooperation among those who write textbooks to do so 
in an open source manner, which can equally enhance their 
prestige just as a proprietary textbook can.
    And I want to encourage the committee to look at additional 
ways that we can encourage open source textbooks to reduce the 
cost of textbooks in higher education.
    And I yield back.
    Chairwoman Foxx. Thank you so much.
    Mr. Curbelo?
    Mr. Curbelo. Thank you very much, Madam Chairman.
    Governor Daniels, thank you for your testimony, and I thank 
all the other witnesses, as well.
    I am a major proponent of accountability in education. I 
have been a witness to the positive effects of the modern day 
accountability and education reform movement as a school board 
member in Miami-Dade County, where I served for 4 years. In 
fact, I credit the modern day education reform movement with 
saving our public schools from mediocrity and, in some cases, 
failure.
    I have been following your proposal and your project at 
Purdue to implement the Collegiate Learning Assessment Plus, 
and I wanted to get your thoughts on that, because I have 
shared this concept with some friends in higher education. Some 
have been open to it; others say that a standardized test for 
higher ed is going to result in standardized colleges and 
universities; and some other criticisms are that each 
university is unique and offers a unique product, and that this 
type of accountability would, in fact, degrade the purpose of a 
college education.
    So I was looking forward to getting some of your thoughts 
on that.
    Mr. Daniels. Just as we thought that one aspect of proving 
the value of our educational product was to measure more 
rigorously the success of our graduates' year 5 and 10 and more 
years out, we also believe that the second aspect of that is to 
measure the growth on campus--intellectual growth of students 
while on our campus. This is not new, and in this respect, we 
are following the lead of many other colleges who are working 
on it.
    It is not simple. There will be no perfect instrument. But 
over and over, I think, across the spectrum of education we 
have seen people resist accountability suggestions on the basis 
that they are not ideal and they are not perfect, and so we 
can't let it be the enemy of the good.
    I don't know if the CLA Plus is the best single instrument 
out there at the moment. It only purports, of course, to 
measure overall critical learning, not any specific 
disciplinary progress that a student may have made. So it ought 
not lead to any homogenization. There is no reason for that. I 
don't know how it could be used to do that.
    But we are working with faculty experts at our campus. We 
are going to move forward, I do believe, in measuring student 
growth. It may well include, at least as a first project, the 
use of that instrument, but we will be looking at all ways in 
which we should do it.
    We simply embrace the responsibility to demonstrate that 
for this still expensive cost, a student really progresses at 
our school and leaves much better prepared for life and 
citizenship than they would otherwise have been.
    Everything we know about Boilermakers tells us that. 
Gallup-Purdue told us part of that, and now we accept the 
responsibility to find some way to say the same thing about the 
on-campus years.
    Mr. Curbelo. As you pointed out in your testimony, a lot of 
young people are increasingly asking the question: What is the 
true value of a college degree? What is the purpose of going to 
college?
    Do you think that, as policymakers, encouraging the use of 
these types of instruments can help answer that question for 
young people--what can you get out of a 2-year degree, out of a 
4-year degree? How will it help you become more qualified for 
the jobs and the opportunities of this century?
    Mr. Daniels. I do. I think it is a legitimate question for 
people to ask. It may be that not every institution everywhere 
can produce the proof, but I think it is fair to ask that we do 
so.
    I want to go back to something that came up in the previous 
question about--was--are businesses plugged into schools. I 
think they are extremely interested in seeing more job-ready, 
life-ready graduates.
    I am worried about businesses unplugging, in the sense that 
they--at some stage they may say, ``Since we can't trust the 
value of these diplomas young people are showing up with, we 
are going to go find our own way to certify readiness, our own 
measurements. And if you can pass that, we will be less 
interested in how many years you spent in a traditional college 
setting.''
    That would be a real danger, and we ought to beat the 
marketplace to that before it reaches such a conclusion.
    Mr. Curbelo. Thank you very much.
    I yield back, Madam Chairman.
    Chairwoman Foxx. Thank you very much.
    Mrs. Davis, you are recognized.
    Mrs. Davis. Thank you, Madam Chair.
    Thank you, to all of you, for being here. I wasn't able to 
be here for the earlier remarks, but I hope I won't ask too 
many of the same questions.
    Mr. Bergeron and Mr. Bennett, we recently had one of our 
many workshops for students and for families on FAFSA, and I 
know you were talking about that earlier. As you have looked at 
that over the years, have you created your own? Have you tried 
to--what is the big challenge in trying to simplify this? 
Because that is really what families are asking for, and you 
may have addressed this earlier.
    What do you think? I mean, why is it that we can't move 
forward with this?
    Mr. Bennett. I think that Governor Daniels, when he 
mentioned he carries the financial aid application with him, I 
do too. It is the number of questions, and currently we are not 
using all the data systems that are available to us to make 
that experience simpler for families.
    In addition to simplification of the form, if we go back to 
prior year and we have the completed tax return, everything 
becomes much better--much simpler for families, increases 
access, and that is what we should be focused on.
    Mrs. Davis. Have you picked up a political challenge here 
somewhere that we are not able to break through? I know the 
Senate is interested in this, as well.
    Mr. Bergeron. So if I might, I think the primary challenge 
today to moving to prior year, or even, in our proposal, 
telling families what federal aid they would be eligible for 
when their son or daughter is entering high school is really a 
question of costs. The reason it is difficult to move to prior 
year is that it will increase the cost of the Pell Grant 
program. It potentially could change the cost of the student 
loan system.
    And I think that fear of those costs are what keep us from 
moving forward. But I think there is tremendous unanimity of 
opinion that we need to be moving in that direction.
    Mrs. Davis. Thank you.
    If I could just turn to you, Governor Daniels, you have 
such a unique perspective in many ways, being president of the 
university now and having--
    Mr. Daniels. You mean because I know less than all these? 
Yes. You are right.
    Mrs. Davis.--having been governor. So I just--I wanted to 
ask you whether--do you--from where you sit today, would you do 
things differently as governor in seeking what many governors 
have to do--cuts to higher education and really impacting the 
local situation?
    Mr. Daniels. You know, the thing I wish I had done better 
is been more successful. We made a huge effort to infuse more 
dollars into higher education. It also involved our--would have 
involved our lottery, although in a different fashion than was 
done in Tennessee and was mentioned in Kentucky. I wasn't 
successful in persuading enough people to go that route, and I 
wish somehow that I had been.
    You know, the second time we tried it, by the way, was--
looked a lot like the president's proposal, a lot like the 
Tennessee proposal that is out there now. We were going to, in 
essence, create an endowment to enable, on a means-tested 
basis, low-income students to attend community college or take 
the same dollars to another state school.
    You know, it is--if I can just observe, it is fun to sit 
here under the portrait of George Miller. Another errand I have 
here in town tomorrow is--he and I co-chaired the Aspen 
Institute's annual competition, and tomorrow we will be naming 
the best community college in the country.
    This is really important. A lot of innovation is going on 
and must go on at that level, and--
    Mrs. Davis. I would agree. I think--
    Mr. Daniels.--we will be--yes, we will be celebrating that, 
and I would associate with those who, in different ways, are 
trying to make it possible for more students to at least start 
their postsecondary careers there.
    Mrs. Davis. Yes. Could you comment also, though, on K-12? 
Because we know that if students are well prepared they are 
going to do better in school, that is going to mean that they 
graduate quicker, as well.
    And if I could just tag on, you have been successful, I 
believe, in trying to do--have some more visibility around 
sexual assault at the university. What do you recommend? We 
obviously are very concerned about having advocates there for 
victims.
    Mr. Daniels. Sure. Well, first of all, in K-12, yes, this 
is the undeniable truth. I remember at the very first meeting 
that I convened of all of the--this is my last job--of the 
Indiana public university presidents and I asked, ``What can 
the state do?'' they started with that, ``Please send us more 
people who are--young people who are ready for college.''
    We are still struggling. Now, Indiana was second to 
Tennessee in the most recent years of improvement in K-12 
performance, so, you know, the needle can move, but it is got a 
long way to go.
    And another reason community colleges are so important is 
we still have too many people who get what we call a high 
school diploma who need remediation in basic reading and math. 
We have given that assignment in our state to the community 
colleges. It is a huge and important burden that they have, and 
another reason we have to boost them.
    Mrs. Davis. Yes. All right.
    My time is up.
    Chairwoman Foxx. Thank you very much.
    It is now my turn, I think, to ask some questions. I always 
wait till the end so my colleagues who want to go away can go 
away if they need to.
    I need to probably give some disclosure also on the issue 
of TRIO programs. I began an Upward Bound program at 
Appalachian State University and wrote the grant to get a 
special services program there, and was at Appalachian when 
Appalachian was doing so many innovative things.
    This was back in the 1970s. We were doing dual enrollment 
with high school students and getting college credit; we did 
Upward Bound; we did special services. There were just all 
kinds of programs. I thought we were going to catch on a long 
time ago in higher education and haven't, frankly. I have been 
a little surprised at that.
    And I have said here a couple of times, in 1962 I took a 
course on TV when I was living with my grandparents in New York 
City--got up early every morning, took a course on TV. I didn't 
try and take it for credit. I thought, again, that was going to 
bloom in higher education. Has not.
    I have, again, been waiting for all these innovations to 
come along. I was out there when they were happening.
    And God is giving me good lessons. My grandson is a senior 
in high school this year and he is struggling with the Common 
Application form and the FAFSA. His mother is pulling out her 
hair trying to do all this.
    So despite what Congresswoman Stefanik said, some of us are 
a little more familiar with what is going on today in higher 
education than she might think.
    So, but I am wanting to ask a couple of questions.
    Dr. Keller, you have talked a little bit about how our 
measures for success--what we get from the department now are 
so narrow. Talk a little bit about what type of students the 
metric through the Student Achievement Measure would give us 
that we are not able to capture now, and a little bit more 
about why this would be significant.
    Ms. Keller. Absolutely. Thank you, Chairman Foxx.
    The Student Achievement Measure, in fact, would cover all 
of the students who are enrolled within higher education and 
seeking a degree or certificate. So that would include part-
time students; that would include students who are transfer 
students to a particular institution; that would include full-
time students, and the full-time first-time students. So with 
the Student Achievement Measure you have the ability to track 
the outcomes of all of those students.
    And we think this is very, very significant. A couple of 
data points to illustrate: Over half of the bachelor's degree 
recipients attend more than one institution before they 
graduate. Only about 30 percent of students enrolled in 
postsecondary education fit the traditional student model.
    We believe it is so important, if we want to hold 
institutions accountable, to have good measures. If we want to 
provide good and clear information for students to make 
informed decisions, we need to be using the right measures in 
order to do so.
    Chairwoman Foxx. Thank you very much.
    Mr. Bennett, what--I don't know if your organization has 
done this or not, and I apologize--what income and asset 
questions should remain or be added to the FAFSA? You have 
talked about the year before the year prior, but what do we 
want to do to make sure that the neediest students get the 
grants that they need? How can we guarantee that?
    Mr. Bennett. Well, I think we guarantee that by knowing 
that you can't just go down to two questions. And, as Governor 
Daniels said, I think you start off with talented people in the 
room and go through the exercise of, what do we need in terms 
of both income and assets to measure a family's financial 
strength, and then try to use the existing systems, like IRS 
Data, and have that automatically happen, versus families 
having to complete 108 questions.
    I think we can use our federal and state systems much more 
efficiently to make that experience for students and families 
easier to apply for this process.
    Chairwoman Foxx. Well, we certainly hear this complaint, as 
other people have said, from absolutely everybody who speaks. 
And shame on us if we can't do something to fix that.
    Thank you very much.
    I would now like to recognize Congresswoman Adams for any 
closing remarks she would like to make?
    Ms. Adams. Thank you, Chairwoman Foxx.
    I would also like to thank all of our witnesses for their 
testimony and for your thoughtful responses.
    Since the last time the Higher Education Act was 
reauthorized in 2008 there have been a lot of changes. College 
enrollment has steadily increased, but so have the related 
costs of going to school.
    I believe that higher education should be accessible to 
everyone regardless of their race, their ethnicity, their 
religion, or any other factors that make us unique. But in 
order to be accessible, it must be affordable.
    So if we don't address the costs of higher education, it 
will surely hurt our economy. As many of you have said, more 
employers are seeking employees with some form of postsecondary 
education.
    It will also continue to saddle students with enormous 
amounts of student loan debt that prevent them from 
participating in other parts of our economy. I have a daughter 
who went to school in Greensboro, and I wanted her to get a 
good education so she could leave home and take care of 
herself, and I am sure that we want that for our children so 
that they can be productive citizens.
    But we must ensure that we are equipping institutions, like 
our HBCUs, with the tools and the resources necessary to serve 
the unique needs of their student populations and not penalize 
them for serving these students, nor should we penalize 
students because of their parents.
    Now, increasing federal investments in successful college 
readiness programs like TRIO, like GEAR UP, can help increase 
college participation and improve student success.
    We have a higher education system that is envied around the 
world and we should be proud of that. However, we have to 
continue making strategic investments or we will begin to see 
our international counterparts outpace, as they have done in 
primary and secondary education.
    Now, I think that we have had a pretty good, thorough, and 
healthy discussion today. I am pleased that we have had that 
and I hope that we can continue this conversation in future 
hearings.
    I look forward to working with my colleagues to get deeper 
into these issues so that we can come together and reauthorize 
Higher Education Act in a bipartisan manner.
    And, Madam Chairman, I yield back.
    Chairwoman Foxx. Thank you very much.
    I want to thank our witnesses again for being here today. 
You have been--provided us lots of food for thought.
    I want to make a couple of comments on some of the things 
you have said and then add a few points.
    I think, Governor Daniels, I was impressed with what you 
said about your coming into your office with the mentality of 
saving. I think in too much of higher education, as you pointed 
out, the rate of increase for tuition and fees has gone up much 
higher than the rate of inflation in our country.
    And I think over the years there has been a mentality in 
higher education that is that we are doing the Lord's work, 
therefore, we should get all the money that we want--not that 
we need, but that we want. And I really think that part of what 
needs to happen is that there be a different mentality in 
higher education in terms of, I think, setting--being good role 
models for all of us and our country.
    And so I think coming in with a strong ethic about 
providing what it is we have traditionally thought higher 
education should be providing. Do you need climbing walls to do 
that? I am not sure--or all those things that you have talked 
about that have added to the cost.
    I think that is part of the basis of what our institutions 
have to do, and I think the legislators are more and more 
looking at that, and I hope more and more governors are going 
to be looking at that.
    You mentioned that in your research you found that those 
who work part time do better both in school and when they 
graduate. We have known that for 100 years in this country. We 
have known that people who work 15 hours a week while they are 
in college do better academically and have a much better chance 
of getting a job.
    Why do we ignore the research? We continue to do research, 
we continue to do--you know, over and over and over again, to 
prove what we have known for a long, long time.
    I contend higher education is the only institution in this 
country that has not changed in 150 years. We are still 
operating on the agrarian model.
    You know, started out a few months, we got up to 9 months. 
So we still take the summers off for people to go home, work on 
the farm. That just isn't happening anymore. So going to year-
round programs is, I think, so important.
    Talking about doing the flipped classrooms is so important, 
I think, where students--if completion is our issue it seems to 
me we ought to do all we can to help them get the information 
that they need.
    I am very keen on this issue of telling students what 
obligation they are taking on when they borrow money--parents 
and students. So, you know, we blame the system, but I think if 
we have students have a piece of paper, you ask them to read it 
in front of you, you ask them to sign it, there is an 
obligation there that those students and those parents are 
taking on.
    We bemoan the fact that there is a large default rate, but 
if we don't expect a sense of responsibility on the part of 
people then we have a problem. And we should be telling people, 
I think, that they don't need all that money that they--that is 
approved for them, and explain to them what their obligation 
is.
    And, Mr. Bergeron, I am really impressed to hear you say 
that after your work on gainful employment in the department 
that you think that should be applied to everyone. I think that 
is a monumental statement that you said today, and I have long 
felt that is the way we should do it. It brings us right back 
to our accountability issues.
    And I think what the governor said--I have agreed with him 
for a long time on the issue of pretty soon business and 
industry is going to say, ``You are not doing the job that we 
want you to do, Higher Education. We are going to do an 
alternative.'' Many of them already are doing that.
    But I think higher education has to look within itself to 
look for the ways to heal itself and ask the federal government 
and state governments to be partners with them, but not to look 
to the federal government for all the solutions, because I 
think many of the solutions lie within the institutions 
themselves.
    So I am very grateful to all of you for being here today 
and presenting alternatives to the way things are being done 
now, and always, always with the focus that we--the taxpayers 
and the students and the parents deserve better of us. And I 
believe we have a moral obligation to show what we should be 
doing and not just to talk about it.
    So I hope as we develop the reauthorization for the Higher 
Education Act that we will be role models and that we can count 
on your support as we implement the recommendations that you 
made.
    There being no further business, the hearing is adjourned, 
and I have no gavel so--
    [Additional submissions by Mr. Daniels follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
